CARDHOLDER AGREEMENT
This document is our standard form credit card agreement in effect on the last business day of the previous calendar
month that ended on February 28, 2021, and has been supplemented with pricing information in the “Terms and
Conditions” located under the Disclosures section on www.farmbureau.bank. These documents are provided to you
for informational purposes only. These account terms may not be available after the above date. If you apply and are
approved for a credit card account with us, your actual account terms will be based on the terms of the offer available
at the time that you applied and your Cardholder Agreement will be the agreement sent to you when your account is
first opened.
This Agreement establishes the terms of your credit card account (“Account”) with Farm Bureau Bank FSB, Sparks,
Nevada. Please read it carefully and keep it with your records. You do not need to sign this Agreement, but please
sign the back of your credit card (the “Card”), if you have not already done so. All extensions of credit in connection
with your Account are being made by Farm Bureau Bank, FSB.
Definitions. If we use a capitalized term in this document but we do not define the term in this document, the term has
the meaning as used in your monthly statement.
“Agreement” means this document, the Terms and Conditions and any changes we make to these documents from time
to time.
“Authorized User” means any person you allow to use your Account including without limitation through a Card, Check,
the account number, or other credit device.
“Balance Transfer” means the use of your Account for a loan obtained by a transfer of funds initiated by us at your
request, including the use of a Balance Transfer Check.
“Cash Advance” means the use of your Card or account number to obtain cash loans at any financial institution or
automated teller machine that accepts the Card, the use of a Cash Advance Check or the purchase of Cash Equivalents.
“Cash Equivalent” means the use of your Card or account number to obtain money orders, traveler’s checks, foreign
currency, lottery tickets, gambling chips, wire transfers, person to person money transfers (including but not limited to
transfers facilitated over the Internet), or the use of your Account to open a deposit account or to transfer value to a
stored value card at a location or through a merchant other than a financial institution and any other transaction that
MasterCard, Visa and/or American Express (as applicable to your Account) may designate as a Cash Equivalent.
“Check” or “Convenience Check” means an access check we provide to you to make a Cash Advance or a Balance
Transfer as applicable on your Account. A Check can be either a Balance Transfer Check or a Cash Advance Check and
will be designated as such by us.
“Daily Periodic Rate” or “DPR” means the applicable APR divided by 365 and “Monthly Periodic Rate” or “MPR” means
applicable APR divided by 12. MPRs are used to calculate your interest charges if you are a resident of Iowa when your
Account is opened. For all other persons, DPRs are used to calculate your interest.

G16530 2.28.2021 Page 1 of 14

“Foreign Transaction” means the use of your Card or Account (other than through a Cash Advance) for a transaction
with a business or entity located outside of the United States or for a transaction in a currency other than U.S. dollars.
Foreign Transactions and the Transaction Fees associated with any Foreign Transaction are considered Purchases for
interest calculation purposes.
“Purchase” means the use of your Card or account number to buy or lease goods or services and to make a transaction
that is not otherwise a Balance Transfer or a Cash Advance. Purchases include Foreign Transactions, Account Fees and
any adjustments associated with any Purchase.
“You” and “your” refer to each person who has applied for, accepted, or used the Account and each person who has
agreed to be responsible for the Account. “We”, “us” and “our” refer the Farm Bureau Bank, FSB.
Using Your Account/Acceptance of these Terms. You do not need to accept the Account and this Agreement and none
of the fees on this Account (except as otherwise provided herein) will apply unless you use the Account. If your Account
has an Annual Fee (see the Terms and Conditions to determine if this Account has an Annual Fee) and provided that you
have not otherwise used the Account to make a Purchase, Balance Transfer or Cash Advance or paid the Annual Fee, you
may close the Account within thirty days after Account opening by contacting us at the number on the back of your
Card, and if you do, you will not be responsible for paying the Annual Fee. By signing, keeping, using or otherwise
accepting your Card or Account, you agree to the terms and conditions of this Agreement. You may obtain credit in the
form of Purchases, Balance Transfers and Cash Advances by using your Card, your account number, Checks, or other
credit devices. You agree that we may credit your Account rather than issue cash refunds when you reverse transactions
that were originally charged to your Account. You agree that you will not use your Card or Account in connection with
any transaction that is prohibited or unenforceable and that if you do engage in such a transaction you waive any claim
that the charge is uncollectible on the grounds the transaction was prohibited or unenforceable. The Card must be
returned to us upon request. We may replace your Card with another Card anytime.
Severability. If any provision of this Agreement is, or becomes illegal, invalid or unenforceable under any applicable
statute or rule of law, that shall not affect the validity or enforceability of any other provision and this Agreement shall
be construed and enforced as if the Agreement did not contain that particular provision to the extent of its invalidity or
unenforceability.
Changes to this Agreement. We may amend the terms of this Agreement, including the amount of any fees, from time
to time in our sole discretion. Depending on the nature of the change, the amendment to this Agreement may, on or
after the date on which it becomes effective, apply to all of your then-outstanding unpaid indebtedness to us under your
Account. If required by applicable law, we will (a) send notice of the changes to you at the address shown on our records
for you and (b) give you the right to opt out of the change. If you opt out of the change you will be unable to initiate any
further transactions on the Account and you will be required to repay the amount that you owe us under the terms and
conditions of the then-existing Agreement.
Obligations on Your Account. You authorize us to pay and charge your Account for all Purchases, Balance Transfers,
Checks, and Cash Advances made or obtained by you or anyone you authorize to use your Card or Account. You agree to
pay us for all of these Purchases, Balance Transfers, Checks, and Cash Advances, plus any interest assessed on your
Account and any other charges and fees which you may owe under the terms of this Agreement, whether resulting from
1) physical use of your Card or a Check, 2) mail order or telephone, computer or other electronic transaction made
without presenting the Card, or 3) any other circumstances where you authorize a charge, or authorize someone else
to G16530 2.28.2021 Page 2 of 14

make a charge, to your Account. Each person who has agreed to be responsible on the Account is responsible to pay the
full amount owed on the Account. If this is a joint Account, we can send statements and notices to either of you. We
may require that you pay the full amount owed without first asking any other person(s) to pay. Instructions for making
payments are on your monthly billing statement. Payments that comply with the requirements specified on or with your
monthly billing statement, including the time of receipt, will be credited as of the business day they are received.
Payments must be mailed to the correct P.O. Box or to the street address specified for U.S. Priority Mail and overnight
payments. There may be a delay of up to five (5) days in crediting payments that are not made in accordance with those
instructions. Please allow at least seven (7) days for the U.S. Postal Service to deliver your payment. All payments must
be made in U.S. dollars. Any payment made by check or other negotiable instrument or direct debit must be drawn on a
U.S. bank or a U.S. branch of a foreign bank. We reserve the right to accept payments made in a foreign currency. If we
do, we will select the foreign currency rate at our discretion. Your available credit may not be immediately increased by
the amount of the payment for up to seven (7) days to ensure we collect the funds from the bank on which your
payment is drawn. If you overpay or if there is a credit balance on your Account, we will not pay interest on such
amounts.
Governing Law. This Agreement and your Account will be governed by applicable federal law and, to the extent not
preempted by federal law, the laws of the State of Nevada.
Our Rights Continue. Our failure or delay in exercising any of our rights under this Agreement does not mean that we
are unable to exercise those rights later.
Credit Limit/Authorized Usage. Your Credit Limit is shown on the carrier containing your Card. We may change your
Credit Limit from time to time—either increase or decrease it—at our sole discretion. If at any time (including in the
first month after your Account is opened) you engage in account actions or activity that we perceive could have a
negative impact on your credit standing with us, we may decrease your Credit Limit or close your Account. Your latest
Credit Limit will appear on your monthly billing statement. You agree not to make a Purchase, authorize a Balance
Transfer, use a Check, or obtain a Cash Advance that would cause the unpaid balance of your Account to exceed your
Credit Limit. We may honor Purchases, Balance Transfers, Checks and/or Cash Advances in excess of your Credit Limit
at our sole discretion. If we do, this Agreement applies to that excess and you agree to pay the excess immediately if
we request that you do so. You agree that we may change your Credit Limit or close your Account at any time for any
reason without affecting your obligation to pay amounts that you owe under this Agreement. We will notify you of
any change, but that change may take effect before you receive the notice. We may designate that only a portion of
your Credit Limit is available for Cash Advances. If we do and you exceed your Cash Advance Credit Limit, you will be
considered to have exceeded your Credit Limit for all purposes of this Agreement. We may limit the authorizations to
make Purchase, Balance Transfer, Check, or Cash Advance transactions that may be accomplished with your Card or
Account. We may in our sole discretion allow you to exceed your Credit Limit at any time, be we are not required to. In
addition, if we do allow you to exceed your Credit Limit for any transaction or transactions, we will not be required to
allow you to do so on another occasion. These charges will be evaluated based on account performance, other credit
accounts with us, and your experience with other creditors. If we authorize these charges, you must pay, with your
Minimum Payment Due, the amount by which your balance exceeds your Credit Limit, including amounts due to
Purchases, Cash Advances, Interest charges, Fees, or other charges.
Checks on Your Account. We may issue Checks on your Account in the form of “Balance Transfer Checks” or “Cash
Advance Checks,” which can be used to access your Credit Limit. Each Check will contain your Account number and may
be used only by the person(s) whose name(s) is/are printed on it. Each must be completed and signed in the same
G16530 2.28.2021 Page 3 of 14

manner as a regular personal check. If we provide Checks to you, you may not use them to pay any amount you owe
under this Agreement or under any other account you may have with us. Balance Transfer Checks and Cash Advance
Checks are subject to the same rate and other terms under this Agreement as Balance Transfers and Cash Advances,
respectively. Unless otherwise indicated, all references in this Agreement to Balance Transfers include Balance Transfer
Checks, all references to Cash Advances include Cash Advance Checks, and all references to use of the Account include
use of these Checks. At our sole discretion we may elect to not honor a Check if there has been a change in your credit
worthiness, your Account is not in good standing or if the Check may cause your Account to exceed the Cash Advance or
other applicable Credit Limit on your Account. At our sole discretion we may elect to honor a Check after its expiration
date. Unlike purchase transactions, there are no charge back rights with regard to Balance Transfer and Check
transactions.
Monthly Billing Statements. At the end of each monthly billing cycle a statement will be mailed or delivered to you if
your Account has a debit or credit balance of more than $1.00 or if interest or a fee has been imposed. We will not send
a monthly billing statement if we deem your Account uncollectible or if delinquency collection proceedings have been
instituted by us sending your Account to an outside collection agency or attorney for collection.
How We Will Calculate Your Balance Subject to Interest Rate. The provisions describing how we calculate your balance
subject to interest rate each month, accrual of interest and how to avoid paying interest on purchases may vary based
on the account type that the applicant applied for a preset spending limit. Option 1 applies to all persons except those
who reside in Iowa when the Account is opened; Option 2 applies if you open your Account while residing in Iowa:
OPTION 1: How We Will Calculate Interest. We use a method called “daily balance (including new purchases)”. We
calculate interest separately for each “Balance Subject to Interest Rate”. These include for example, Purchases at the
current rate, Balance Transfers at the current rate, Cash Advances at the current rate, and different promotional
balances. Your monthly billing statement shows each “Balance Subject to Interest Rate”. To calculate interest, we first
calculate a daily balance for each Balance Subject to Interest Rate. We start with the balance, for that Balance Subject to
Interest Rate, as of the end of the previous day. We add any interest calculated on the previous day’s balance. (This
means interest is compounded daily). We add any new Purchases, Balance Transfers and Cash Advances to the
appropriate balance and subtract any new payments or credits from the appropriate balance. We then add all fees that
have not already been added to your balance and make other adjustments as authorized by this Agreement. A credit
balance is treated as a balance of zero. We then multiply each daily balance by the applicable DPR. We do this for each
day in the billing period. That gives us the daily interest. We add up all the daily interest for all of the daily balances to
get the total interest for the billing period.
Accrual of Interest and How to Avoid Paying Interest on Purchases. On Purchases, interest begins to accrue as of the
transaction date. However, you may avoid paying interest on Purchases in any given billing cycle if you pay your New
Balance in full by the Payment Due Date. For Balance Transfers, interest will accrue from the transaction date which
generally will be the day we send the Balance Transfer to the payee. For Checks, interest will accrue from the
transaction date which generally will be the day the payee accepts the Check. For Cash Advances, interest will accrue
from the transaction date which generally will be the day you take the Cash Advance. If you are charged interest in a
billing cycle, we will charge a Minimum Interest Charge (or “Minimum Charge”) on your Account if the total interest
charge in that billing cycle is less than the amount of the Minimum Interest Charge.

G16530 2.28.2021 Page 4 of 14

OPTION 2: How We Will Calculate Your Balance Subject to Interest Rate (For Residents of Iowa at the Time of Account
Opening). We use a method called “average daily balance (including new purchases)”. To determine the amount of the
interest to be charged on your Account we first calculate the “Balance Subject to Interest Rate” separately for
Purchases, for Balance Transfers, and for Cash Advances. We apply the applicable Monthly Periodic Rate to the average
daily balances of i) Purchases, ii) Balance Transfers, and iii) Cash Advances. The average daily balances for Purchases, for
Balance Transfers, and for Cash Advances are calculated separately and determined as follows: We take the beginning
balances for each balance category on your Account each day, add to the respective balances any new transaction and
any fees that you have incurred and that have not already been added to your balance, and then subtract any payments
or credits and make any other applicable adjustment(s). A credit balance is treated as a balance of zero. Then we take
the sum of all daily balances and divide by the number of days in the billing period to determine the average daily
balance. If you multiply the “Balance Subject to Interest Rate” for each balance category as disclosed on your monthly
billing statement by the applicable MPRs, the results will be the interest assessed, except for minor variations caused by
rounding. We may from time to time offer you “introductory”, “special” or “promotional” APR offers. If any are in effect
on your Account, we will separately identify the balances to which such offers apply on your monthly billing statement.
These separate balances and the related interest will be calculated in the same manner as described above.
Accrual of Interest and How to Avoid Paying Interest on Purchases. On Purchases, interest begins to accrue as of the
transaction date. However, you may avoid paying interest on Purchases in any given billing cycle if you pay your New
Balance in full by the Payment Due Date each month. For Balance Transfers, interest will accrue from the transaction
date which generally will be the day we send the Balance Transfer to the payee. For Checks, interest will accrue from the
transaction date which generally will be the day the payee accepts the Check. For Cash Advances, interest will accrue
from the transaction date which generally will be the day you take the Cash Advance. If you are charged interest in a
billing cycle, we will charge a Minimum Interest Charge (or “Minimum Charge”) on your Account if the total interest
charge in that billing cycle is less than the amount of the Minimum Interest Charge that is disclosed in the terms of your
Account.
Your Minimum Payment Each Month. Each billing cycle, you must pay at least the Minimum Payment Due shown on
your monthly statement by its Payment Due Date. We will calculate it as follows:
(1) If the New Balance is less than $20, the Minimum Payment Due equals the New Balance shown on your monthly
statement.
(2) If the New Balance is $20 or more, the Minimum Payment Due equals the greater of $20 or the total of:
• 1% of the New Balance,
• Any interest charges billed on the monthly statement (excluding any interest charges that accrued during prior billing
cycles on a deferred interest balance that ended during the billing cycle covered by the statement),
• Any Minimum Interest Charge, and
• Any unpaid Late Payment, Returned Payment, Cash Advance, Balance Transfer and Convenience Check Fees.
If we so elect, your Minimum Payment Due may also include any amount that, at the time of billing, is past due and/or
over your Credit Limit. In certain instances your Minimum Payment Due may be less than the total fees and interest
assessed that billing cycle. At any time you may pay more than the Minimum Payment Due up to the full amount you
owe us. However, you cannot “pay ahead”. This means that if you pay more than the required Minimum Payment Due in
G16530 2.28.2021 Page 5 of 14

any billing cycle or if you make more than one payment in a billing cycle, you will still need to pay the next month’s
required Minimum Payment Due by your next Payment Due Date.
Variable Rate Information. The following applies to any APR on your Account that varies with the market based on the
Prime Rate. The standard Annual Percentage Rates (APRs) on our Account that are used to determine the amount of
interest to be charged for Purchases, Balance Transfers, Cash Advances, and the Penalty APR are variable rates. The
APRs on your Account correspond to a daily periodic rate (“DPR”) or a monthly periodic rate (“MPR”) which is applicable
only to residents of Iowa at the time of Account opening. The applicable DPRs/MPRs on your Account equal 1/365th (or
1/12th for residents of Iowa at the time of Account opening) of the sum of 1) the applicable Prime Rate, 2) plus the
margin(s) listed above for each Purchase, Balance Transfer, or Cash Advance balance or the margin listed above if a
Penalty APR applies. The “Prime Rate” used in determining the APRs in each billing cycle will be the highest rate
published in the Money Rates column of The Wall Street Journal on the last business day of each month. An increase or
decrease in the Prime Rate will cause a corresponding increase or decrease to your variable rates on the first day of the
billing cycle that begins in the same month in which the applicable Prime Rate is published. There is no limitation on the
amount of any increase. Any such increase or decrease will cause a corresponding increase or decrease in the amount of
interest assessed and possibly in the amount of the Minimum Payment Due. If The Wall Street Journal does not publish
the U.S. Prime Rate, or if it changes the definition of the U.S. Prime Rate, we may substitute another index.
APR for Purchases: The variable rate equals the Prime Rate plus a margin from 9.74% to 21.74%, (this corresponds to a
current DPR of 0.02668% - 0.05956%) (this corresponds to a current MPR of 0.81167% - 1.81167% for residents of Iowa
at the time of account opening (if applicable)).
APR for Balance Transfers: The variable rate equals the Prime Rate plus a margin from 9.74% to 21.74%, (this
corresponds to a current DPR of 0.02668% - 0.05956%) (this corresponds to a current MPR of 0.81167% - 1.81167% for
residents of Iowa at the time of account opening (if applicable)).
APR for Cash Advances: The variable rate equals the Prime Rate plus a margin of 21.99%, (this corresponds to a current
DPR of 0.06025%) (this corresponds to a current MPR of 1.8325% for residents of Iowa at the time of account opening (if
applicable)).
How the Penalty APR may apply to Your Account: The APR’s on your Account may be increased each time you fail to
pay at least the Minimum Payment Due when it is due. We will determine the amount of the Penalty APR increase based
on our review of your credit history at the time (including your credit performance with other creditors). Our notice will
specify the balances to which the Penalty APR will be applied. The Penalty APR may continue to apply to these balances
indefinitely. However, the Penalty APR will cease to apply to certain existing balances if, after the Penalty APR goes into
effect, you make the next six consecutive minimum payments in a row when due.
Transaction Fees. We may charge and you agree to pay each of the following transaction fees:
•
•
•

If you use your Card or Account to obtain a Cash Advance, we will charge a Cash Advance Fee for each such Cash
Advance.
If you use your Card or Account to do a Balance Transfer, we will charge a Balance Transfer Fee for each such
Balance Transfer.
If you use your Card or Account to purchase Cash Equivalents, we will charge a Cash Advance Fee (sometimes
we may refer to this as a Cash Equivalent Fee) for each such transaction.
G16530 2.28.2021 Page 6 of 14

•

If you use your Card or Account for a Foreign Transaction, we will charge a Foreign Transaction Fee for each such
transaction.

Balance Transfer Checks and Cash Advance Checks are subject to the same Transaction Fee as Balance Transfers and
Cash Advances, respectively. The present amounts of those charges are stated in the Terms and Conditions, located
under Disclosures on www.farmbureau.bank
Account Fees. In addition to the fees listed in the Terms and Conditions, we may also assess the Account Fees listed
below.
Annual Fee - If your account has an Annual Fee, generally it will be billed at account opening and every twelve months
thereafter. The amount of the Annual Fee, if there is one on your Account, is listed in the Terms and Conditions.
Late Payment Fee - If we do not receive a payment from you in at least the amount of your Minimum Payment Due by
the Payment Due Date shown on your monthly statement, we may charge you a Late Payment Fee. The amount of the
Late Payment Fee will be determined in accordance with applicable law. Thus, the fee generally will not exceed the
amount of the applicable Minimum Payment Due. The amount of the Late Payment Fee is described in the Terms and
Conditions, (including residents of Iowa).
Returned Payment Fee - If your bank does not honor a check or direct debit you deliver to us, or we must return a check
because it is not signed or is otherwise irregular, we may charge you a Returned Payment Fee. The amount of the
Returned Payment Fee will be determined in accordance with applicable law. Thus, the fee generally will not exceed the
amount of the applicable Minimum Payment Due. The amount of the Returned Payment Fee is described in the Terms
and Conditions (including residents of Iowa).
Returned Check Fee - If we return a Convenience Check (which includes a Balance Transfer Check or a Cash Advance
Check) unpaid because it exceeds your available Credit Limit at the time it is processed, your Account is closed or
otherwise does not have charge privileges, you did not comply with our instructions regarding the Check or your
Account is past due, we may charge you a Returned Check Fee. The amount of the Returned Check Fee will be
determined in accordance with applicable law. Thus, the fee generally will not exceed the amount of the returned
Convenience Check. The amount of the Returned Check Fee is described in the Terms and Conditions (including
residents of Iowa).
Check Stop Payment Fee – If we stop payment on a Convenience Check at your request, we may charge you a fee. The
Check Stop Payment Fee is described in the Terms and Conditions (including residents of Iowa).
Legal Transactions Only. You shall reimburse, indemnify, and hold harmless MasterCard and us for any and all amounts,
expenses, or damages resulting from your alleged illegal use of the Account.
Foreign Currency Conversion for MasterCard Cards - We and MasterCard (or their affiliates) will convert transactions in
foreign currencies into U.S. Dollars. MasterCard will use their currency conversion procedures that are current at the
time of the transaction. Currently, the currency conversion rate they use is either the wholesale market rate or the
government-mandated rate in effect under those procedures increased by one percent. The currency conversion rate
used on the conversion date may differ from the rate in effect on the date you used your Card or Account.
G16530 2.28.2021 Page 7 of 14

Authorized Users. You may allow Authorized Users to use your Account. If you allow an Authorized User to use your
Account, you will be liable for all transactions made by that person including transactions for which you may not have
intended to be liable, even if the amount of those transactions causes your credit limit to be exceeded. You must notify
us to revoke your permission to allow an Authorized User to use your Account or Card. Until you revoke your
permission, you are responsible for all charges made by an Authorized User, including Balance Transfer Check and Cash
Advance Check transactions, regardless of whether you intended to be responsible for those charges. If you request
additional Cards for Authorized Users, checks accessing this Account may also be included with the Card.
Administrative Charges. If you request photocopies of monthly billing statements, you will be charged our reasonable
fee, in effect at that time for each duplicate requested for each statement requested. If you request any special services
such as obtaining Cards on an expedited basis and we can honor your request, we may charge your Account our
Expedited Delivery Charges in effect at that time. We will advise you of the amount of the fee when you request the
service.
Default/Collection Costs. Unless otherwise prohibited by law, your Account will be in default and we may demand
immediate payment of the entire amount you owe us if: 1) in any month we do not receive your Minimum Payment Due
by the Payment Due Date; 2) you make Purchases, initiate Balance Transfers, use a Check, or obtain Cash Advances in
excess of your Credit Limit; 3) you fail to comply with this Agreement; 4) there is a filing for your bankruptcy; 5) you die
or become incapacitated; or 6) we believe in good faith that the payment or performance of your obligations under this
Agreement is impaired for any other reason. As permitted by applicable law, you agree to pay all collection expenses
actually incurred by us in the collection of amounts you owe under this Agreement (including court or arbitration costs
and the fees of any collection agency to which we refer your Account) and, in the event we refer your Account after your
default to an attorney who is not our regularly salaried employee, you agree to pay the reasonable fees of such
attorney. We will not be obligated to honor any attempted use of your Account if a default has occurred or we have
determined to terminate your Account or limit your Account privileges (as discussed below).
Termination/We May Suspend or Close Your Account. We may suspend or close your Account or otherwise terminate
your right to use your Account without prior notice. We may do this at any time and for any reason, including but not
limited to, if there is a change to your creditworthiness or if your Account becomes inactive. You must destroy all Cards,
Checks or other credit devices on the Account when we request. You agree that you will not try to make a Purchase, use
a Check, initiate a Balance Transfer or obtain a Cash Advance after you have been notified that your privilege to use your
Account has been closed or revoked. You may close your Account at any time. If you do, you must destroy all Cards and
Checks previously issued on the Account. If you call us, we may require that you confirm your termination in writing.
Your obligations under this Agreement continue even after the Account is closed.
Notices to You. Billing statements and notices will be sent to the address shown in our files. If this is a joint Account, we
may send billing statements and notices to either of you. You promise to promptly inform us of any change in your email address or your U.S. mail address. You may update this information by visiting the website on the back of your Card
and sending us an e-mail or telephoning us at the telephone number provided on your Card. We may in our discretion
accept address corrections from the United States Postal Service.
Consent to Receive Electronic Notices. You may receive periodic billing statements and other notices regarding your
Account electronically or by U.S. mail. By requesting statements and other notices electronically, which may only be
done on our website, and by providing any other legally required consents, you affirmatively consent to receive all
periodic billing statements and other notices electronically when legally permissible. Otherwise, statements and notices
G16530 2.28.2021 Page 8 of 14

will be sent to the address shown in our files. If at any time you need a paper copy of statements or notices, or you
change your mind and prefer to receive all your statements and notices in paper rather than electronic form, telephone
us at the number provided on the back of your card or visit us at the website on the back of your Card and send us an email. In order to access your statements and notices electronically, you must have a computer equipped with at least a
40-bit JavaScript-enabled Netscape or Microsoft browser at the Version level 4.0 or higher. In order to retain your
statements and notices, you must have a printer attached to your computer that can print them out or a drive or other
storage device onto which you can download them. By accepting the receipt of electronic statements and other notices,
you confirm that you have the software and equipment that satisfies these requirements to enable you to access and
retain your statements and notices electronically.
Skip Payment Program and Other Special Terms. From time to time, we may let you skip or reduce one or more
monthly payments (interest will continue to accrue) or offer you other special features. If we do, we will advise you of
the scope and duration of the applicable skip or special feature. When the skip or special feature ends, your regular
terms will resume.
Credit Performance. Your Account was established based upon criteria which reflect your particular credit history. We
will from time to time review your credit performance. In addition to any other rights we have, if you do not maintain
your past level of credit performance, we may change some or all of the Account terms on your Account, and if we do
we will notify you as provided in this Agreement and in accordance with applicable law.
Credit Information. You agree that we may request consumer credit reports from one or more credit reporting
agencies in connection with your application and the administration of your Account. Upon your request, we will tell
you whether we obtained a consumer report and the names and addresses of any consumer reporting agencies that
provided such reports.
Furnishing Information to Credit Reporting Agencies. You also authorize us to exchange credit information concerning
you or your Account with (and answer questions and requests from) others, such as merchants, other lenders and credit
reporting agencies. If you believe that we have furnished any inaccurate information relating to your Account to any
consumer reporting agency, you may notify us at the following address: P.O. Box 33427, San Antonio, TX 78265-3427.
To help us respond to your notification, you must include your Account number, Social Security number, the name of
the consumer reporting agency reflecting the inaccurate information, and an explanation of why you believe the
information is inaccurate. You understand that you may also contact the appropriate consumer reporting agency directly
at the following address and toll-free number: Equifax, P.O. Box 740241, Atlanta, GA 30374, 1.800.685.1111; Trans
Union, P.O. Box 1000, Chester, PA 19022, 1.800.916.8800; or Experian, P.O. Box 2002, Allen, TX 75013, 1.888.397.3742.
NEGATIVE CREDIT REPORTS
YOU ARE HEREBY NOTIFIED THAT A NEGATIVE CREDIT REPORT REFLECTING YOUR CREDIT HISTORY WITH US MAY BE
SUBMITTED TO A CREDIT REPORTING AGENCY IF YOU FAIL TO FULFILL THE TERMS OF YOUR CREDIT OBLIGATIONS. LATE
PAYMENTS, MISSED PAYMENTS, OR OTHER DEFAULTS ON YOUR ACCOUNT MAY BE REFLECTED IN YOUR CREDIT REPORT.
Calls/Electronic Communications. In the regular course of our business, we may monitor and record phone
conversations made or received by our employees or our agents. Similarly, we may monitor and record e-mail or
conversations on our website between you and our employees or agents. You agree that we will have such right with
respect to all phone conversations, e-mail or conversations between you and our employees or agents, whether
initiated by you or any of our employees or agents. We may contact you by telephone in connection with the Account,
G16530 2.28.2021 Page 9 of 14

directly or through an agent – for example, to collect amounts owed on the Account, to notify you of potential
fraudulent transactions on your account or for other account-servicing purposes. If at any time you provide a mobile
telephone number at which you may be contacted, you consent to receive calls (including autodialed calls and
prerecorded messages) at that mobile number from us, our successors and assigns, and our affiliates, agents and
independent contractors, including servicers and collection agents, regarding the Account or your related financial
obligations.
You consent and further agree that: (1) these telephone calls, from us or on our behalf, may be made: (a) to the
telephone number(s) that you provided on the Account application, (b) to any other telephone number(s) that you later
provide to us, and/or (c) to any telephone number(s) that we are permitted by law to use to contact you; (2) these calls
may be sent using automatic dialing equipment and/or include prerecorded messages; (3) other communications,
including mobile text messages, may be sent to the same telephone number(s) (technology permitting); (4) you may be
charged by your service provider for these calls in accordance with your service plan between you and your current
telephone provider; (5) these calls and/or messages are not “unsolicited” calls for purposes of applicable law; and (6)
except to the extent prohibited by applicable law, other communications, including, but not limited to, fax, Internet, U.S.
mail, and non-mobile email messages, may be sent to you.
Refusal to Honor Card. We are not responsible for refusals to honor your Card or Checks. Except as otherwise required
by applicable law or regulation, we will not be responsible for merchandise or services purchased or leased through use
of your Account.
Irregular Payments and Delay in Enforcement. We can accept late payments, partial payments, checks and money
orders marked “Paid in Full” or language having the same effect without losing any of our rights under this Agreement.
We can also delay enforcing our rights under this Agreement any number of times without losing them. The fact that we
may at any time honor a Purchase, Check, Balance Transfer or Cash Advance in excess of your maximum Credit Limit
does not obligate us to do so again.
Payments Made on Your Account. If you make a payment on this Account utilizing a check, you authorize us either to
use the information from your check to make a one-time electronic fund transfer from your checking/deposit account or
to process the payment as a check transaction. When we use information from your check to make an electronic fund
transfer, funds may be withdrawn from your bank account as soon as the same day you make your payment, and you
will not receive your check back from your financial institution. For inquiries, or to opt out of one-time electronic fund
transfers, please call the number listed on the back of your Card.
Payments that are Returned on Your Account. If a payment you make is not honored by your bank and we have
already credited your account for the payment, we will reverse the credit in the following manner. We separately total
the amounts credited to Purchases, Cash Advances, and Balance Transfers. For each such amount we create a new
transaction at the then current applicable rate for Purchases, Cash Advances, and Balance Transfers, respectively, and
add that transaction to your account as of the date the original payment was first credited to your Accounts.
Payment Allocation. Subject to any mandatory provisions of applicable law, in most instances, we will allocate any
amount over your minimum payment to the highest APR balances first. Payments up to the minimum payment will be
applied at our discretion, including to lower APR balances first.

G16530 2.28.2021 Page 10 of 14

Liability for Unauthorized Use of Your Account. If your Card or any Check(s) are lost or stolen or if you have reason to
think someone may use your Account without your permission, you must notify us at once. Please telephone us at the
number on the back of your Card concerning the loss or theft of your Card or Checks or the possible unauthorized use of
your Account. Do not use the Card, Account number or any Checks after they have been reported lost or stolen, even if
they are found or returned. You will not be liable for unauthorized use of the Account; however, you must identify for us
the charges that were not made by you or someone authorized by you and through which you received no benefit. We
may require you to provide us with certain information and to comply with our investigation procedures. We may
terminate or limit access to your Account if you have notified us or we have determined that your Card or Checks may
have been lost or stolen, or that there may be unauthorized access to your Account.
Inquiries or Questions: You may address any inquiries or questions which you have about your Account to Farm Bureau
Bank, FSB, by visiting the website on the back of your Card and sending us an e-mail, writing us at Farm Bureau Bank,
FSB, P.O. Box 33427, San Antonio, Texas 78265-3427, or calling us at the number on the back of your Card. If you
telephone or email us instead of writing, you may lose certain rights the law gives you to dispute billing errors.
ARBITRATION. At the election of either you or us, any claim, dispute or controversy (“Claim”) by either you or us against
the other, arising from or relating in any way to this Agreement or your Account, or their establishment, or any
transaction or activity on your Account, including (without limitation) Claims based on contract, tort (including
intentional torts), fraud, agency, negligence, statutory or regulatory provisions or any other source of law and (except as
otherwise specifically provided in this Agreement) Claims regarding the applicability of this arbitration provision or the
validity of the entire Agreement, shall be resolved exclusively by arbitration. For purposes of this provision, “you”
includes yourself, any authorized user on the Account, and any of your agents, beneficiaries or assigns, or anyone acting
on behalf of the foregoing, and “we” or “us” includes our employees, parents, subsidiaries, affiliates, beneficiaries,
agents and assigns, and to the extent included in a proceeding in which Farm Bureau Bank, FSB, is a party, its service
providers and marketing partners. Any Claims sought to be made or remedies sought to be obtained as part of any class
action, private attorney general or other representative action (hereafter all included in the term “class action”) shall be
subject to arbitration, and arbitrated on an individual basis between you and us, not on a class or representative or
other collective basis. The arbitrator shall not have any authority to entertain a claim, or to award any relief, on behalf of
or against anyone other than a named party to the arbitration proceeding. If any Claim is advanced in a court, arbitration
may be elected under this provision instead, and the right to elect arbitration shall not be deemed to have been waived
if the election is made at any time before commencement of trial.
Alternatively, you and we may pursue a Claim within the jurisdiction of the Justice of the Peace Court in Nevada, or the
equivalent court in your home jurisdiction, provided that the action remains in that court, is made on behalf of or
against you only and is not made part of a class action, private attorney general action or other representative or
collective action.
The arbitration shall be administered by the American Arbitration Association, www.adr.org, 950 Warren Avenue, East
Providence, Rhode Island, 02914, 1.866.293.4053 (the “Administrator”). The Administrator provides information about
arbitration, its arbitration rules and procedures, fee schedule and claims forms at its web site or by mail as set forth
above. The Administrator will apply the rules and procedures in effect and applicable to the claim at the time the
arbitration is filed. The Claim will be heard before a single arbitrator. The arbitration will not be consolidated with any
other arbitration proceedings. The Administrator shall resolve each dispute in accordance with applicable law.

G16530 2.28.2021 Page 11 of 14

If you commence arbitration, you must provide us the notice required by the Administrator’s rules and procedures. The
notice may be sent to our Operations Center at Farm Bureau Bank, FSB, PO Box 33427, San Antonio, Texas 78265-3427.
If we commence arbitration, we will provide you notice at your last known billing address. We agree to honor a request
by you to remove the action to a Small Claims Court, provided that we receive the request within thirty days of the
notice of commencement of arbitration. Any arbitration hearing at which you appear will take place at a location within
the federal judicial district that includes your billing address at the time the Claim is filed.
This arbitration agreement is made pursuant to a transaction involving interstate commerce, and shall be governed by
the Federal Arbitration Act, 9 U.S.C. §§ 1-16. No class actions, joinder or consolidation of any Claim with a Claim of any
other person or entity shall be allowable in arbitration, without the written consent of both you and us. In the event that
there is a dispute about whether limiting arbitration of the parties’ dispute to non-class proceedings is enforceable
under applicable law, then that question shall be resolved by litigation in a court rather than by the arbitrator; and to
the extent it is determined that resolution of a Claim shall proceed on a class basis, it shall so proceed in a court of
competent jurisdiction rather than in arbitration.
A party can file with the Administrator a written appeal of a single arbitrator’s award within 30 days of award issuance,
requesting a new arbitration in front of three neutral arbitrators designated by the Administrator. The panel will
reconsider all factual and legal issues, following the same rules of procedure, and will make decisions based on majority
vote. Any final arbitration award will be binding on the named parties and enforceable by any court having jurisdiction.
Judgment upon any arbitration award may be entered in any court having jurisdiction.
We will pay, or reimburse you for, all fees or costs to the extent required by law or the rules of the arbitration
Administrator. Whether or not required by law or such rules, if you prevail at arbitration on any Claim against us, we
will reimburse you for any fees paid to the Administrator in connection with the arbitration proceedings. Under no
circumstances will we seek from you payment or reimbursement of any fees that we incur in connection with
arbitration. In addition, in any arbitration that you elect to file that could be heard in Small Claims Court in your
jurisdiction, we will pay the filing fees and other arbitration fees above the cost of filing in that Small Claims Court. If you
are required to advance any fees or costs to the arbitration Administrator, but you ask us to do so in your stead, we will
consider and respond to your request.
This arbitration agreement applies to all Claims now in existence or that may arise in the future, and it survives the
termination of the Cardholder Agreement and the Account relationship, including your payment in full, and your filing of
bankruptcy. Nothing in this Agreement shall be construed to prevent any party’s use of (or advancement of any claims,
defenses, or offsets in) bankruptcy or repossession, replevin, judicial foreclosure or any other prejudgment or
provisional remedy relating to any collateral, security or property interests for contractual debts now or hereafter owed
by either party to the other under this Agreement.
ARBITRATION WITH RESPECT TO A CLAIM IS BINDING AND NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE
THAT CLAIM THROUGH A COURT. IN ARBITRATION YOU AND WE WILL NOT HAVE THE RIGHTS THAT ARE PROVIDED IN
COURT INCLUDING THE RIGHT TO A TRIAL BY JUDGE OR JURY AND THE RIGHT TO PARTICIPATE OR BE REPRESENTED
IN PROCEEDINGS BROUGHT BY OTHERS SUCH AS CLASS ACTIONS OR SIMILAR PROCEEDINGS. IN ADDITION, THE RIGHT
TO DISCOVERY AND THE RIGHT TO APPEAL ARE ALSO LIMITED OR ELIMINATED BY ARBITRATION. ALL OF THESE
RIGHTS ARE WAIVED AND ALL CLAIMS MUST BE RESOLVED THROUGH ARBITRATION.

G16530 2.28.2021 Page 12 of 14

Your Billing Rights: Keep this Document for Future Use.
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do if You Find a Mistake on Your Statement.
If you think there is a mistake on your statement, write to us at:
Farm Bureau Bank
PO Box 33427
San Antonio, TX 78265
You may also contact us on the Web:
www.farmbureau.bank
In your letter, give us the following information:
• Account Information: Your name and account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if
we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that account.
• The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply an unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to
that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
G16530 2.28.2021 Page 13 of 14

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all the rules above, you do not have to pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address,
and the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if we own the company that sold you the goods or
services.
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or electronically at:
Farm Bureau Bank
PO Box 33427
San Antonio, TX 78265
www.farmbureau.bank
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

G16530 2.28.2021 Page 14 of 14

